NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL


                       AUDIT SURVEY OF
                SHARE INSURANCE FUND LOSSES



                 Report #OIG-05-10 October 26, 2005




                           William DeSarno
                           Inspector General


 Released By:                                  Auditor-in-Charge:



 James Hagen                                   Charles E. Funderburk, CPA
 Assistant Inspector General for Audits        Senior Auditor
                           TABLE OF CONTENTS


                                                              Page

EXECUTIVE SUMMARY                                              1

BACKGROUND                                                     2

PURPOSE AND OBJECTIVES                                         3

SCOPE AND METHODOLOGY                                          3

RESULTS                                                        4

RECOMMENDATIONS                                                7

APPENDIX A - 2004 Credit Union Failures and Reported Losses    8
                           EXECUTIVE SUMMARY

The National Credit Union Share Insurance Fund (NCUSIF) reports insurance losses due
to failed federally insured credit unions. Several National Credit Union Administration
(NCUA) offices are involved in recording and reporting of such losses. The NCUA
Office of Inspector General (OIG) performed an audit survey to assess the accuracy and
reliability of reported insurance losses for credit unions that failed in 2004.

We determined that the number of failed credit unions and their related insurance losses
for the year ended December 31, 2004, were reported inconsistently among several
offices. As a result, the number of failures reported in 2004 varied from 18 to 21
federally insured credit unions. The reported insurance losses for those failures ranged
from $12.9 to $14.1 million. This was caused primarily by not having a clear and
consistent cut-off date for recording and reporting insurance losses. We obtained
insurance loss information for the year ended December 31, 2004, from the Office of the
Chief Financial Officer (OCFO), the Office of Examination and Insurance (E&I), the
NCUA Asset Management and Assistance Center (AMAC), and from all five NCUA
Regional Offices.

We assessed inherent risks, reviewed insurance loss recording and reporting procedures,
and compared credit union failures and insurance losses among various reports. We also
conducted an analysis of the data provided and conducted interviews with management to
address the discrepancies we identified.

Regional and AMAC insurance loss data for failed credit unions is communicated to
OCFO and E&I by different means and for different purposes. The source information
for insurance losses is continually updated for any given reporting period with no
consistently defined period cut-off posting date. Consequently, the information reported
is dependent upon its run date. Moreover, no reconciliation is performed between source
data and reported data for accuracy and consistency.

We offered two recommendations to clarify and improve reporting of losses to the Share
Insurance Fund.




                                          1
                                   BACKGROUND
The NCUSIF was established as a revolving fund in the United States Treasury under the
management of the NCUA Board for the purpose of insuring member share deposits in
all federally chartered credit unions and in qualifying state chartered credit unions that
request insurance. The maximum amount of insurance is $100,000 per shareholder
account.

Each year, if federally insured credit unions fail, either through liquidation or an assisted
merger, the NCUSIF may incur a loss. The OCFO Division of Insurance reported in the
NCUA’s 2004 Annual Report that 21 credit unions failed during 2004 resulting in $12.9
million in losses for the year.

Each month, the NCUSIF issues financial statements for management’s use, including
supporting tables with insurance loss activity. Each calendar year end, the NCUSIF
issues audited financial statements where insurance losses are reported.

During 2004, the NCUSIF adopted a new methodology for recognizing insurance losses
by establishing a contingent liability (reserve for losses) based upon estimated annual
losses from failed credit unions. E&I prepares the reserve for loss calculations based
upon information supplied by AMAC and the five NCUA regional offices. The
methodology is a five step process:
        Step 1 – Insured credit unions are grouped into nine risk pools.
        Step 2 – Failure rates for risk pools are determined by calculating the number of
failed credit unions in the past two years divided by the total number of credit unions for
each risk pool. Total assets times the calculated failure rate for each risk pool are totaled
to arrive at total assets subject to failure.
        Step 3 – A ten year average loss experience rate is calculated. The ten year
average loss experience rate times the assets subject to failure determines the non-specific
case reserve needs.
        Step 4 – Non-specific case reserve needs are added to specific case (credit unions
with 100% probability of failure) reserve needs to give total reserve needs.
        Step 5 – Reserve needs are calculated with a 90% confidence interval upper limit.
The NCUSIF Investment Committee can set the reserve for losses anywhere from the
calculated reserve needs to the 90% upper limit confidence interval.

Regions initially report pending liquidations and requests for NCUSIF assistance in
assisted mergers. This information is relayed to the NCUSIF via telephone. Once a
liquidation occurs, the NCUA AMAC assumes responsibility for the case. AMAC
determines case reserve needs and forwards this to E&I for reserve calculation purposes.
A liquidation loss report is provided to OCFO and E&I reflecting loss activity. Monthly
loss activity journal entries are “parked” by AMAC and posted after NCUSIF review.
Regional staff sends reserve needs requests for assisted mergers to E&I. E&I uses this to
prepare their reserve needs worksheet which is provided to NCUSIF. Approved
assistance is processed, paid and recorded by the NCUSIF.




                                            2
                              PURPOSE AND OBJECTIVES
In June 2005, the OIG completed a review of Federally Insured State Chartered Credit
Unions. As part of that review, we attempted to determine the amount of realized losses
for failed federally chartered credit unions versus the amount of realized losses for failed
state charted credit unions over the past ten years. We were unable to verify the losses
reported with our limited analysis.

For this reason, we decided to conduct an audit survey to determine the accuracy and
reliability of reported insurance losses. The objective of this audit survey was to assess
the accuracy and reliability of reported insurance losses for credit unions that failed in
2004.

                            SCOPE AND METHODOLOGY
To accomplish our objective, we assessed the inherent risks of recording and reporting
insurance fund losses. This assessment was based upon a review of the importance of the
subject matter; complexity of operations; sensitivity of the data; and the flow and
liquidity of funds. In addition, we reviewed previous audits and reviews related to the
subject, and assessed the degree of any changes to the program.

We focused our review on those credit unions that failed during 2004. We obtained from
NCUSIF staff a detailed listing of the names and amount of losses per credit union for the
21 failed credit unions reported by the NCUSIF in the 2004 NCUA Annual Report. We
attempted to verify the number of credit unions that failed and the reported losses for
those credit unions by comparing this listing to the following:

    1. 2004 failed credit union losses reported in the NCUSIF financial statements;
    2. 2004 failed credit union losses reported by E&I in their 12/31/04 reserve for loss
       calculation;
    3. related credit union losses reported by AMAC via their individual failed credit
       union financial statements; and
    4. 2004 reported losses by each region and through the regionally maintained
       GENISIS1 system.

We reviewed the reserve for loss methodology and reviewed insurance loss recording and
reporting procedures. We also conducted an analysis of the data provided and conducted
interviews with management to address the discrepancies we identified. This audit
survey was conducted in accordance with Generally Accepted Governmental Auditing
Standards, except for our scope limitation discussed above.




1
 GENISIS is the national system used to track and report the history of insurance related items including
mergers and liquidations



                                                  3
                                      RESULTS
The number of reported credit union failures and related amounts of insurance losses
differed among the various NCUA reporting offices for the year ended December 31,
2004. As a result, the reported credit union failures ranged from a high of 21 to a low of
18 in 2004. The reported insurance fund losses for failed credit unions during 2004
ranged from $12,895,344 to $14,114,744. This was caused by not having a clear and
consistent cutoff date for recording and reporting insurance losses. In addition,
reconciliations were not performed on recorded and reported information among offices.
This resulted in questionable reliability of the reported number of credit union failures
and the amount of related insurance fund losses. (See Appendix A)

The following is a breakdown of how NCUA reported 2004 failed credit union insurance
losses. These insurance losses were reported in the NCUA Annual Report, NCUSIF year
end financial statements, E&I’s year end reserve for insurance loss calculations, and
AMAC and regional reports. Listed below are eleven examples of differences between
the various reports.

2004 NCUA Annual Report

The 2004 NCUA Annual Report section, “National Credit Union Share Insurance Fund”,
stated that “twenty-one credit unions failed during 2004, resulting in $12.9 million
charged to reserves.” Listed below are two examples of differences reported in the
annual report compared to other reports.

Credit Union            NCUA’s              Financial    E&I - Reserve         AMAC and
                    Annual Report         Statements        for Losses            Regions
BrooklynEcu             $873,761            $255,077         $904,931            $255,077
Midwood                        0           1,004,911        1,004,911           1,004,911

The detail support for the annual report listed Brooklyn Ecumenical Credit Union as
having a $873,761 loss for 2004. The NCUSIF financial statements and AMAC, on the
other hand, reported a $255,077 insurance loss for this institution. The difference of
$618,683 supposedly represented the loss for a purchase and assumption. OCFO
acknowledged the annual report was overstated by this amount after it was brought to
their attention by the OIG. Further, the region reported that the credit union received
$459,506 in NCUA assistance. In another case, Midwood Credit Union showed $0 for
losses in the 2004 annual report. However, the year end financial statements and the
12/31/04 AMAC Midwood Credit Union financial statement reported a $1,004,911 loss
for the year. The OCFO explained this as a timing difference. However, this credit
union failed on December 16, 2004.




                                           4
2004 NCUSIF Financial Statements

The National Credit Union Share Insurance Fund 2004 year end financial statements
listed twenty one credit unions which failed in 2004, resulting in $13.2 million charged to
reserves. Listed below are two examples of differences reported in the NCUSIF financial
statements compared to other reports.

Credit Union            NCUA’s             Financial     E&I - Reserve         AMAC and
                    Annual Report         Statements        for Losses           Regions
N. Florida                    $0              $1,125             $ N/A             $ N/A
Little Haiti             307,622             253,918           307,622           308,736

North Florida was listed as a failed credit union in 2004 with a $1,125 loss. However, the
annual report listed the credit as a failure but with a $0 loss. Nether E&I nor AMAC or
the region listed this credit union as a 2004 failure. The OCFO was unable to explain
why Little Haiti Credit Union had a reported loss of $253,918 in the 2004 financial
statements, yet the annual report and E&I reserve calculation reported a $307,622 loss
while AMAC reported a loss of $308,736.

2004 E&I Year End Reserve For Losses

The December 31, 2004 Reserve for Pool Loss calculation listed seventeen failed credit
unions in 2004 with losses of $13.1 million. One specific case failure was listed with a
loss of $1.0 million, giving a total of eighteen failures with losses of $14.1 million.
Listed below are five examples of differences reported in E&I reserve for loss calculation
compared to other reports.

Credit Union            NCUA’s              Financial    E&I - Reserve         AMAC and
                    Annual Report         Statements        for Losses            Regions
St.Gregory            $1,078,000          $1,078,000       $1,077,013          $1,078,000
Austin W                 211,207             211,207           211,300            211,207
Vestal                     -1,704              -1,704             N/A              -1,704
Com Milw                -122,814            -122,814              N/A            -122,814
Appalachia               156,516             156,516           216,211            156,516

Two credit unions (Vestal and Community of Milwaukee) were listed by AMAC and the
OCFO with insurance gains. Therefore, these two credit unions were not listed as
“failures” in the reserve for loss calculation. Three credit unions (St. Gregory, Austin
West Garfiled, and Appalachian Development) reported insurance losses in the reserve
for loss calculations that did not agree with the respective losses reported in the annual
report, year end financial statements or AMAC/Regions.




                                           5
2004 Year End AMAC and Regional Reporting

AMAC reported thirteen credit unions failing in 2004 with insurance loss activity totaling
$11.7 million. The five regional offices listed six additional credit union failures. The
loss activity for these nineteen credit unions totaled $13.2 million. The GENISIS system
listed seven assisted mergers and 16 liquidations in 2004 for a total of 23 failures. Listed
below are two examples of differences reported in AMAC and reports compared to other
reports.

Credit Union            NCUA’s              Financial     E&I - Reserve         AMAC and
                    Annual Report          Statements        for Losses           Regions
Sorvall                    20,000              20,000            20,000              N/A
Butler                   911,513              911,513           911,513           908,961

Sorvall Credit Union was not listed as a failure by the region, but was listed as a failure
by E&I and OCFO in the annual report and financial statements. US Employees Butler
Credit Union had a reported loss by AMAC which differed from that reported by OCFO
and E&I.

Insurance Loss Recording and Reporting Procedures

Previous year end financial statement audits have identified several internal control
weaknesses, primarily Information Technology (IT), with NCUA’s financial accounting
system. In general, these weaknesses relate to a lack of documented policies and
procedures, a lack of segregation of duties, and a lack of activity and security monitoring.
Recording and reporting insurance losses is a high risk program. The activity of
recording and reporting insurance losses is moderately complex with several offices
involved in the process. The process of liquidating credit unions involves numerous
individual transactions resulting in highly liquid transactions. According to OCFO, the
insurance loss systems for the OCFO, AMAC and the regions have different posting cut-
off dates due to workflow requirements for each office. AMAC’s monthly posting cut-
off date is a few days before month end, whereas the OCFO monthly posting cut-off date
is the last working day of the month. The OCFO retains copies of AMAC journal entries
and AMAC/regional requests for funds. In turn, the OCFO sends the NCUSIF monthly
report and general ledger entries to AMAC and the regions for review and reconciliation.
AMAC also receives a periodic listing of involuntary liquidation and assisted Purchase
and Assumption activity retained on an OCFO access data base. If there is a discrepancy,
AMAC and/or the regions are to contact OCFO. However, the reporting discrepancies
discussed above indicate:
     • the insurance loss recording and reporting function lacks adequate verification of
         reported amounts;
     • there is no reconciliation or verification of reported transactions between offices;
         and
     • there is no consistent period ending cut-off date for reported transactions.




                                           6
                              RECOMMENDATION 1
OCFO should establish a consistent closing date for reporting failures and realized losses
each fiscal year. OCFO should also establish a closing date for posting all source data
transactions related to Share Insurance Fund losses.

The OCFO agrees with the recommendation. The OCFO further stated that they will
establish a consistent closing date for reporting failures and realized losses each fiscal
year; excepting any year end adjustments recommended by the financial statement
auditors.

                              RECOMMENDATION 2
OCFO should reconcile reported losses to the source data from reporting offices.

The OCFO stated they will provide E&I with monthly reserve transactions for their
review, as they already provide to AMAC and the regions. OCFO will also provide the
number of credit union and related loss amounts for current year failures to E&I, AMAC
and the regions for their review. OCFO further stated that they are now reconciling
monthly SAP, NCUSIF’s Access database and AMAC’s loss reports. In addition OCFO
states the NCUSIF continues to reconcile SAP and E&I’s Reserve Needs Report, but the
NCUSIF cannot reconcile SAP with AMAC and Region requests for reserving since E&I
doesn’t always reserve in either the amount or month the request is submitted to E&I.

E&I stated they prefer to utilize the most recent data in preparing non-specific reserve
calculations. Using the most recent data would create a prohibitive volume of
subsequent entries to allow reconcilement with the amounts reported in the year end
financial statements. E&I further stated that its Division of Risk Management has been
working with the OCFO and AMAC to help resolve some of the accounting issues that
impact the reporting of net losses for each individual credit union and will continue to
provide assistance as workload allows.




                                           7
 APPENDIX A – 2004 CREDIT UNION FAILURES and REPORTED
                         LOSSES

Credit Union            NCUA’s        Financial   E&I - Reserve   AMAC and
                    Annual Report    Statements      for Losses     Regions
1 – Tepeyac                $9,000        $9,000          $9,000      $9,000
2 – Sorvall                20,000        20,000          20,000
3–                         41,047        41,047          41,047       41,047
BrooklynLng
4 – Denver                260,174       260,174        260,174        260,174
5 – HCA                    25,000        25,000         25,000         25,000
6 – Henry St              112,656       112,656        112,656        112,656
7 – St.Gregory          1,078,000     1,078,000      1,077,013      1,078,000
8 – N. Florida                  0         1,125
9 – Austin W              211,207       211,207        211,300       211,207
10 – Vestal                -1,704        -1,704                       -1,704
11 –                      873,761       255,077        904,931       255,077
BrooklynEcu
12 – Oak Cliff          1,120,876     1,120,876      1,120,876      1,120,876
13 – Dallas Ed          4,456,159     4,456,159      4,456,159      4,456,159
14 – Union Pac          1,410,999     1,410,999      1,410,999      1,410,999
15 – Com Milw            -122,814      -122,814                      -122,814
16 –Appalachia            156,516       156,516        216,211        156,516
17 – Little Haiti         307,622       253,918        307,622        308,736
18 – Diakonia             265,114       265,114        265,114        265,114
19 – NorCar             1,760,218     1,760,218      1,760,218      1,760,218
20 – Butler               911,513       911,513        911,513        908,961
21- Midwood                     0     1,004,911      1,004,911     *1,004,911
TOTALS                $12,895,344   $13,228,992    $14,114,744    $13,260,133

* Specific Case




                                     8
